  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

 BUREAU OF JUSTICE ASSISTANCE COOPERATIVE 

AGREEMENTS AWARDED TO BRANDEIS UNIVERSITY 

         WALTHAM, MASSACHUSETTS 



          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 


         Audit Report GR-70-14-005 

                 April 2014 

      AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

BUREAU OF JUSTICE ASSISTANCE COOPERATIVE AGREEMENTS

          AWARDED TO BRANDEIS UNIVERSITY

              WALTHAM, MASSACHUSETTS


                                   EXECUTIVE SUMMARY 1


       The Department of Justice Office of the Inspector General, Audit Division, has
completed an audit of four Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA) cooperative agreements awarded to Brandeis University
(Brandeis), agreement numbers 2008-PM-BX-K017, 2009-PM-BX-K044, 2011-PM­
BX-K001, and 2011-PM-BX-K002. The total amount for the four cooperative
agreements was $3,826,950.

      These cooperative agreements were awarded to Brandeis to: (1) provide
comprehensive training and technical assistance to assist state grantee Prescription
Drug Monitoring Programs, (2) oversee the continued development of the Interstate
Information Sharing Project, and (3) build upon the Prescription Drug Monitoring
Center of Excellence through the development of a clearinghouse of information
and analysis for prescription drug monitoring stakeholders.

       The objective of our audit was to determine whether reimbursements claimed
for costs under the agreements were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
cooperative agreements. We also assessed Brandeis’s program performance in
meeting the cooperative agreements’ objectives and overall accomplishments.

      We determined Brandeis did not fully comply with some of the essential
cooperative agreement requirements we tested. We reviewed Brandeis’s
compliance with 12 essential cooperative agreement conditions and found
weaknesses in 7 areas. Specifically, we found internal control weaknesses,
untimely progress reports, unsupported and unallowable consultant expenditures,
expenditures that were outside of the project scope, non-compliance with award
special conditions, and accountable property that was not inventoried. Additionally,
we determined that Brandeis did not effectively monitor contractors and a
subrecipient who performed services funded by the cooperative agreements.
Because of the deficiencies identified, we are questioning $608,646 of the
cooperative agreement funds. 2 This report contains 12 recommendations, which
are detailed in the Findings and Recommendations section of the report.



        1
          Inspector General Michael E. Horowitz recused himself from this audit as an alumnus of
Bradeis University.

        2
            Appendix II of this audit report provides a detailed listing of the questioned costs summarized
here.




                                                     -i­
       These items are discussed in detail in the findings and recommendations
section of the report. Our audit objectives, scope, and methodology appear in
Appendix I.

       We discussed the results of our audit with Brandeis officials and have
included their comments in the report, as applicable. Additionally, we requested a
response to our draft report from Brandeis and OJP, and those responses are
appended to this report as Appendix III and IV, respectively. Our analysis of both
responses, as well as a summary of actions necessary to close the
recommendations can be found in Appendix V of this report.




                                        -ii­
       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

      BUREAU OF JUSTICE ASSISTANCE COOPERATIVE 

     AGREEMENTS AWARDED TO BRANDEIS UNIVERSITY

              WALTHAM, MASSACHUSETTS


                              TABLE OF CONTENTS


INTRODUCTION..................................................................................1

Office of Justice Programs ............................................................      2

Bureau of Justice Assistance .........................................................       2

Brandeis University......................................................................    2

Cooperative Agreements. .............................................................        2

Our Audit Approach .....................................................................     4


FINDINGS AND RECOMMENDATIONS ................................................ 6

Internal Control Environment ....................................................... 6

Cooperative Agreement Expenditures ............................................ 7

Reporting .................................................................................10

Drawdowns................................................................................11

Indirect Costs ............................................................................12

Budget Management and Control..................................................12

Monitoring of Contractors ...........................................................13

Subrecipient Monitoring ..............................................................14

Compliance with Other Cooperative Agreement Requirements..........16

Accountable Property .................................................................16

Program Performance and Accomplishments ..................................17

Conclusions ...............................................................................19

Recommendations ......................................................................19


APPENDIX I - OBJECTIVES, SCOPE, AND METHOLODOGY ........21

APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS .....23

APPENDIX III - BRANDEIS UNIVERSITY RESPONSE TO THE

   DRAFT AUDIT REPORT ......................................................24

APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE

   TO THE DRAFT AUDIT REPORT ..........................................30

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT .....................................................34

      AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

BUREAU OF JUSTICE ASSISTANCE COOPERATIVE AGREEMENTS 

          AWARDED TO BRANDEIS UNIVERSITY 

              WALTHAM, MASSACHUSETTS 


                                      INTRODUCTION 


      The Department of Justice Office of the Inspector General, Audit Division, has
completed an audit of four Office of Justice Programs, Bureau of Justice Assistance
(BJA) cooperative agreements awarded to Brandeis University (Brandeis), located in
Waltham, Massachusetts. The cooperative agreements reviewed were : (1) the
Harold Rogers Prescription Drug Monitoring Training and Technical Assistance
Program, award number 2008-PM-BX-K0 17; (2) Harold Rogers Prescription Drug
Monitoring Program Training and Technical Assistance, award number 2009-PM-BX ­
K044; (3) Prescription Drug Monitoring National Training and Technical Assistance
Center, award number 2011-PM-BX - K00 1 ; and (4) Prescription Drug Monitoring
Program Clearinghouse/ Center of Excellence, award number 20 11-PM-BX-K002. As
shown in Exhibit I, BJA awarded Brandeis a total of $3,826,950 under the four
awards . 3

                                            EXHIBIT I
                            Bureau of Justice Assistance 

                   Cooperative Agreements to Bran d els Umverslty 

                                                     -

               Award                 Award               Award
                                                                          Award Amount
              Number               Start Date           End Date

        2008 - PM - BX-KOI7         10/ 1/ 2008        06/ 30/ 20 10            $    670000
        2009 - PM - BX-K044         10/ 1/ 2009        06/ 30/ 20 12                1456954
        20 11- PM - BX-KOOI         10/ 1/ 2011        03/ 31 / 2013                 700,000
        20 11- PM - BX-K002         10/ 1/ 2011        03/ 31 / 2013                 500 000
         Supp lement 1 to
                                    10/ 1/ 2011        03/ 31 / 20 14                499,996
        20 11- PM - BX-K002
            Total                                                               $ 3 , 826, 950
       Source : BJA

       The stated purpose of the cooperative agreements was to: (1) provide
training and technical assistance to state grantees; (2) establish a national Center
of Excellence for prescription drug monitoring programs; (3) provide leadership and
coordination of the interstate information sharing project; and (4) advance
prescription drug monitoring programs through assessment.

        3 In August 2012 , Brandeis recei v ed a $1 ,200,000 supplemental award for the
2011-PM - BX-KOOl cooperative agreement. However, Brandeis did not receive approva l to spend the
supplemental award until March 2013. Because the permission to use the supplemental award was
granted after our fie ldwork concluded in December 2012, the supplemental award was not included in
our audit testing and is not included in our audit report.




                                                - 1­
       The objective of our audit was to determine whether reimbursements claimed
for costs under the cooperative agreements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the cooperative agreements. We also assessed Brandeis’s program
performance in meeting cooperative agreement objectives and overall
accomplishments.

Office of Justice Programs

       The Office of Justice Programs (OJP), within the Department of Justice,
provides the primary management and oversight of the cooperative agreements we
audited. According to its website, OJP provides innovative leadership to federal,
state, local, and tribal justice systems by disseminating state-of-the-art knowledge
and practices across America, and providing grants for the implementation of these
crime fighting strategies. Because most of the responsibility for crime control and
prevention falls to law enforcement officers in states, cities, and neighborhoods, the
federal government can be effective in these areas only to the extent that it can
enter into partnerships with these officers. Therefore, OJP does not directly carry
out law enforcement and justice activities. Instead, OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training, coordination,
and innovative strategies and approaches for addressing these challenges.

Bureau of Justice of Assistance

        BJA’s mission is to provide leadership and services in grant administration
and criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA supports programs and initiatives in
the areas of law enforcement, justice information sharing, countering terrorism,
managing offenders, combating drug crime and abuse, adjudication, advancing
tribal justice, crime prevention, protecting vulnerable populations, and capacity
building.

Brandeis University

        According to Brandeis’s website, Brandeis was founded in 1948 and is one of
the youngest private research universities, as well as the only nonsectarian Jewish-
sponsored college or university in the country. Named for the late Justice Louis
Dembitz Brandeis of the U.S. Supreme Court, Brandeis University’s website states
that it combines the faculty and resources of a world-class research institution with
the intimacy and personal attention of a small liberal arts college. The university is
located in Waltham, Massachusetts, 9 miles west of Boston.

Cooperative Agreements

       Cooperative agreements are awarded to states, units of local government, or
private organizations at the discretion of the awarding agency. The distinguishing


                                        -2­
factor between a grant and a cooperative agreement is the degree of federal
participation or involvement during the performance of the work activities.
Cooperative agreements are used when substantial involvement is anticipated
between the awarding agency, in this case BJA, and the recipient during
performance of the contemplated activity.

Prescription Drug Monitoring Programs

       Beginning in 2002, Congress appropriated funding to the Department of
Justice to support the Harold Rodgers Prescription Drug Monitoring Program
(PDMP). PDMPs are intended to help prevent and detect the diversion and abuse of
drugs, particularly at the retail level, where no other automated information
collection system exists, by enhancing the capacity of regulatory and law
enforcement agencies to collect and analyze data on prescriptions of
pharmaceutical controlled substances.

2008-PM-BX-K017 Program Background

       The primary goal of the Prescription Drug Monitoring Training and Technical
Assistance Program was to provide a comprehensive array of training and technical
assistance to state grantees so that the state grantees can enhance the capacity of
regulatory and law enforcement agencies’ ability to collect and analyze controlled
substance prescription data through a centralized database administered by an
authorized state agency.

2009-PM-BX-K044 Program Background

       The 2009-PM-BX-K044 cooperative agreement called for Brandeis, in
partnership with the Alliance of State Prescription Monitoring Programs, to build
upon and expand Brandeis’s initial year of work on the Harold Rogers Prescription
Drug Monitoring Program Training and Technical Assistance Program funded by the
2008-PM-BX-K017 cooperative agreement. Specifically, under the 2009
cooperative agreement, Brandeis was to continue to develop innovative ways to
provide training and technical assistance to state PDMPs; add a new
Clearinghouse/Center of Excellence for PDMPs; and, as described in further detail
below, subcontract with the Integrated Justice Information Systems (IJIS) Institute
to continue development of the Interstate Information Sharing Project.

      Interstate Information Sharing Project Phase III Extension

       The purpose of the Phase III Extension Project was to allow four states to
exchange patient information with each other. Brandeis assumed responsibility of
Interstate Information Sharing Project Phase III Extension Project when it received
the 2009-PM-BX-K044 award, a non-competitive award which required Brandeis to
contract with the IJIS Institute for $616,596 to complete the Phase III Extension
Project. The IJIS Institute, a nonprofit membership-based organization “dedicated
to joining forces with its member companies to unite the private and public sectors
for improving mission-critical information sharing,” had begun work on the Phase


                                        -3­
III Interstate Information Sharing Project in 2008 with funds provided by a
Department grant. 4 According to the Phase III project manager at the IJIS
Institute, the funds awarded to Brandeis for the extension of Phase III were
necessary because the project ran out of funding during the initial Phase III of the
project because of the decision to develop server software with cooperative
agreement funds at the IJIS Institute. As of October 2009, BJA had awarded the
IJIS Institute $2,194,863 for the entire interstate information sharing project.

2011-PM-BX-K001 Program Background

       This 2011 award provided Brandeis with funding to continue to provide
training and technical assistance to states funded by the Harold Rogers Prescription
Drug Monitoring Program. Brandeis proposed that it would serve as the primary
technical assistance provider for PDMP grantees by providing technical assistance
online, via telephone, through on-site assistance and through peer-to-peer
assistance.

2011-PM-BX-K002 Program Background

        According to the award documentation, this cooperative agreement was
intended to allow Brandeis to build upon the Prescription Monitoring Program Center
of Excellence it established with its 2009 BJA award. Specifically, Brandeis was to
focus on three major continuing programmatic goals: (1) develop a clearinghouse
of information, analyses, and evaluation tools for PDMP stakeholders, (2) advance
PDMPs through a focus on the assessing the performance of PDMPs including
identification of promising practices, and (3) work with national and federal
partners to increase the utilization and improve the benefits of PDMPs.

Our Audit Approach

        We tested compliance with what we considered to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our report,
we applied the Office of Justice Programs (OJP) Financial Guide as our primary
criteria during our audit. The OJP Financial Guide serves as a reference manual
assisting award recipients in their fiduciary responsibility to safeguard award funds
and ensure that funds are used appropriately and within the terms and conditions
of cooperative agreements. Additionally, the OJP Financial Guide cites applicable
Office of Management and Budget (OMB) criteria and the Code of Federal
Regulations (C.F.R.) that we also considered in performing our audit. We tested
Brandeis’s:

      •	 Internal Control Environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard award funds and ensure compliance with the terms and
         conditions of the cooperative agreements.

      4
          The grant number of the 2008 grant was 2008-PM-BX-K062.




                                             -4­
      •	 Personnel Budget Allocation and Personnel Expenditures to
         determine whether the personnel costs charged to the cooperative
         agreements were allowable, supported, accurate, and whether positions
         were within approved award budgets.

      •	 Expenditures to determine whether the costs charged to the cooperative
         agreements were allowable and adequately supported.

      •	 Reporting to determine if the required periodic Federal Financial Reports
         and Progress Reports were submitted on time and accurately reflected
         grant activity.

      •	 Drawdowns to determine whether requests for reimbursement, or
         advances, were adequately supported, and if Brandeis managed
         cooperative agreement receipts in accordance with federal requirements.

      •	 Indirect Costs to determine whether Brandeis’s expenditures were
         allocated in accordance with its indirect cost rate agreement.

      •	 Budget Management and Control to determine whether Brandeis
         adhered to the BJA-approved cooperative agreement budgets for the
         expenditure of funds.

      •	 Monitoring of Contractors to determine whether Brandeis had taken
         appropriate steps to ensure that contractors complied with requirements
         of the cooperative agreements.

      •	 Monitoring of Subrecipients to determine if Brandeis conducted
         adequate financial and programmatic monitoring of subrecipients of
         cooperative agreement funds.

      •	 Compliance with Other Requirements to determine if Brandeis
         complied with all of the terms and conditions specified in the individual
         cooperative agreement award documents.

      •	 Accountable Property to determine whether Brandeis had procedures
         for controlling accountable property, and whether the property was
         included in its inventory and identified as purchased with federal funds.

      •	 Program Performance and Accomplishments to determine whether
         Brandeis achieved cooperative agreement objectives, and to assess
         performance and cooperative agreement accomplishments.

      Where applicable, we also test for compliance in the areas of matching funds
and program income. For these cooperative agreements, we determined that
matching funds were not required and the programs funded by the cooperative
agreements did not generate any program income.


                                        -5­
                  FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

          We determined that Brandeis University did not comply with
          all of the cooperative agreement requirements in the areas we
          tested. Specifically, we found: (1) deficiencies in Brandeis’s
          system of internal controls, (2) unsupported and unallowable
          expenditures, (3) inaccurate and late grant reporting,
          (4) inadequate contractor monitoring, (5) inadequate
          subrecipient monitoring, (6) noncompliance with special
          conditions, and (7) deficiencies in inventory controls. As a
          result of these deficiencies, we question $608,646 in grant
          expenditures. These conditions, including the underlying
          causes and potential effects on program performance, are
          further discussed in the body of this report.

Internal Control Environment

       We developed an understanding of the financial and accounting systems and
related internal controls Brandeis used to ensure it complied with the terms and
conditions of the cooperative agreements. We interviewed Brandeis officials and
requested financial reporting and accounting system data to determine if controls
were adequate to separately account for and maintain cooperative agreement
funds. In reviewing Brandeis’s internal controls specific to the cooperative
agreements, we also assessed whether policies and procedures were in place to
guide Brandeis in safeguarding cooperative agreement funds and administering the
cooperative agreement awards.

       According to the OJP Financial Guide, recipients of cooperative agreements
are responsible for establishing and maintaining an adequate system of accounting
and internal controls. The absence of an adequate and effective internal control
environment leaves cooperative agreement funds at significant risk and weakens
the ability of the cooperative agreement recipient to ensure that federal funds are
being adequately safeguarded and spent in accordance with the objectives of the
cooperative agreement.

       While our audit did not assess Brandeis’s overall system of internal controls,
we did review the internal controls of Brandeis’s financial management system
specific to the management of DOJ cooperative agreement funds during the grant
periods under review. Overall, we identified significant internal control deficiencies
that are discussed in greater detail below. These deficiencies warrant the attention
of Brandeis’s management for necessary corrective action.

      According to the Government Accountability Office, a positive control
environment provides discipline and structure to a system of internal controls.
Management’s commitment to competence is a primary factor in determining an
organization’s internal control environment. All personnel need to possess and


                                        -6­
maintain a level of competence that allows them to accomplish their assigned
duties, as well as understand the importance of developing and maintaining good
internal control.

        While we found that Brandeis had established financial policies and
procedures, we found several instances where these policies and procedures were
not fully implemented. The control weaknesses we identified impair Brandeis’s
ability to adequately safeguard assets and maintain effective control and
accountability over federal funds.

      •	 Brandeis’s Accounts Payable Department paid invoices for labor that did
         not list the amount of time worked.

      •	 Brandeis overpaid a website development contractor $7,113 because
         officials did not limit the amount paid to the contractor to the contract
         award amount.

      •	 Invoices appeared to be paid without close scrutiny or review.
         Specifically, we determined that only 42 of 187 consultant invoices
         included time and effort reports as required by the OJP Financial Guide.

      •	 We observed a contractor mistakenly submitted an invoice for a time
         period for which the contractor already had been compensated. Brandeis
         did not deny payment of the invoice until the contractor recognized the
         error and submitted an invoice for the correct period.

      •	 Brandeis did not always adhere to its sole source policy because,
         according to the principal investigator, he was concerned that competitive
         selection of consultants would have delayed the project’s implementation.

     We recommend that Brandeis enhances its policies and procedures to
enhance its accountability over federal funds.

Cooperative Agreement Expenditures

       Brandeis’s cooperative agreement expenditures consisted of payments for
personnel, fringe benefits, consultants, expenses for training and conferences
(including travel, lodging, and food), and indirect costs. We tested Brandeis’s
expenditures to determine if they were allowable, reasonable, allocable, necessary
to the project, and in compliance with the funding requirements within the OJP
Financial Guide. We identified a total of $686,923 in expenditures that we consider
questioned costs, including $91,292 (consultants, commingled expenditures, and
conference participation) we consider unallowable, and $595,001 (consultant
expenditures) we consider unsupported.




                                        -7­
Personnel and Fringe Benefits

       According to its accounting records, as of September 30, 2012, Brandeis
spent $291,066 on employee salaries and $72,059 on fringe benefits. We selected
16 payroll transactions totaling $117,960, or 41 percent of all salary expenditures,
for detailed testing to determine if salaries were supported and allowable. For the
sampled transactions, we found that the salary expenditures were supported by the
required time and effort reports, allowable based on the budgets approved by BJA,
and in compliance with the award requirements of the cooperative agreements. We
also determined that Brandeis maintained sufficient documentation to support
personnel expenditures charged to the cooperative agreements.

       We selected 16 fringe benefit payments totaling $4,542 to determine
whether the fringe benefit expenditures were adequately supported. In our testing,
we verified the fringe benefit rates established by the Department of Human and
Health Services and to determine whether these costs were allowable, we
calculated the fringe benefit costs using the approved fringe benefit rates and bi­
monthly salary information. Based on our review, we determined that the fringe
benefits were supported and allowable.

Conferences

       The approved budgets for the four cooperative agreements allowed Brandeis
to spend a total of $439,573 to attend conferences where participants were to
exchange critical information and explore topics of special interest or growing
concern in prescription drug monitoring. We reviewed invoices totaling $126,820,
about 35 percent of the conference related expenses for the four cooperative
agreements, to determine if the expenditures were allowable and adequately
supported. Based on our review, we determined that Brandeis maintained records
to support the expenditures we selected. We also determined that Brandeis
followed the approved budgets and obtained approval from BJA prior to holding
conferences. As a result, we determined that the expenses related to conferences
were allowable.

Consultants

       Special conditions incorporated as part of Brandeis’s cooperative agreement
awards limited consultant fees to no more than $56.25 per hour, or $450 a day for
an 8 hour day, for an individual consultant. This special condition stipulated that a
detailed budget justification must be submitted and approved by BJA prior to the
obligation and expenditure of funds in excess of that maximum allowable daily or
hourly rate. To determine if Brandeis complied with the special condition, we
reviewed invoices submitted to Brandeis by consultants and consultant agreements.

       Brandeis allocated $797,602 for consultants to oversee the Technical and
Training Assistance Center and Center of Excellence and, as of September 2012,
spent $713,791 on consultants. According to the budgets, with the exception of
agreement number 2008-PM-BX-K017, BJA approved the daily consultant rate


                                        -8­
Brandeis expected the consultants to charge. We reviewed consultant invoices and
identified instances where consultants submitted invoices that charged an hourly
rate that exceeded the approved $56.25 per hour. Specifically, we found that
Brandeis operates on a 7-hour work day, but some of the consultants retained for
the cooperative agreements exceeded the allowable rate by basing charges on an
8 hour day exceeding Brandeis’s allowable rate. As a result, we expanded our
testing to a total of 208 transactions, or 100 percent of the consultant
expenditures, totaling $713,791.

       Our expanded testing revealed additional instances in which consultants
charged in in excess of Brandeis’s allowable rate per seven-hour day. As a result,
consultant charges in excess of the approved hourly rate, we question $60,068 as
unallowable. Brandeis officials told us they believed they complied with the special
condition because Brandeis disclosed the daily rates for the consultants in the grant
budget approved by BJA. However, Brandeis’s budgets submitted to BJA for
approval did not disclose that consultants would be compensated in excess of the
allowable hourly rate, and approval from OJP to exceed the rate was never
obtained.

       According to the OJP Financial Guide, “time and effort reports are required
for consultants.” However, according to Brandeis personnel, Brandeis did not
require time and effort reports for consultants to be submitted in conjunction with
the consultant’s invoices. With the exception of three consultants, who provided
these reports without being required, we found that time and effort reports were
not maintained. This lack of monitoring places federal grant award funds at risk
and undermines the ability of Brandeis to adequately administer and manage the
award, as well as ensure that federal funds are being adequately safeguarded and
spent accurately and properly in accordance with the grant objectives. As a result
of this deficiency, we question $595,001 Brandeis paid to consultants that were not
adequately supported by time and effort reports for all four cooperative
agreements.

Cooperative Agreements Inaccurately Charged

       The OJP Financial Guide prohibits funds specifically budgeted or received for
one project to be used to support an alternate project. Inaccurate distribution of
expenditures among cooperative agreements impairs project implementation
because the cooperative agreement that is inaccurately charged has fewer funds
available to accomplish its objectives. We determined that Brandeis spent $22,167
from the 2008-PM-BX-K017 cooperative agreement on five consultant invoices for
expenses that were incurred by another of Brandeis’s cooperative agreements.
Similarly, we found that Brandeis spent $1,757 from the 2011-PM-BX-K011
cooperative agreement on two consultant transactions incurred by another
cooperative agreement. We determined the cause of these inaccurate charges was
Brandeis’s failure to verify that cooperative agreement expenditures were assigned
the correct accounting code. As a result of this deficiency, we questioned $23,923
as unallowable.




                                        -9­
Reporting

Federal Financial Reports

       The financial aspects of cooperative agreements are monitored through a
Federal Financial Report (FFR). 5 According to the OJP Financial Guide, FFRs are
designed to describe the status of a program’s funds and should be submitted
within 30 days of the end of the most recent quarterly reporting period on a
calendar basis throughout the life of a grant. Grant funding requests (drawdowns)
or future awards may be withheld if reports are not submitted or are excessively
late. The Financial Guide also requires that grantees report the actual expenditures
and unobligated liquidations as incurred for the quarterly reporting period. We
reviewed the submitted FFRs for timeliness and accuracy.

2008-PM-BX-K017

       Brandeis submitted all seven of the required FFRs for the grant. We
determined one of the seven FFRs was submitted 3 days late. Brandeis officials
told us the late submission was attributable to a delay in OJP’s Grant Management
System processing the FFR. We do not consider this untimely submission to be
material. Additionally, we found that the data in FFRs reconciled with the data in
Brandeis’s accounting records.

2009-PM-BX-K044

       Brandeis submitted all 11 of the required FFRs for the grant. We determined
9 of 11 FFRs were submitted on time and that 9 of 11 FFRs matched Brandeis’s
accounting records. We determined 2 of 11 FFRs were submitted 5 days late. The
expenditures reported in the June 2011 and the September 2011 quarterly FFRs did
not match Brandeis’s accounting records. For the quarterly reporting period ending
in June 2011, Brandeis’s FFR reported $34,608 in grant expenditures, but the
accounting records for that period reported expenditures of $30,320. Brandeis’s
FFR reported $59,516 in expenditures for the September 2011 quarterly reporting
period, but the accounting records for the period reported $63,804. Brandeis’s Vice
President for Finance agreed the FFRs were inaccurate and told us the discrepancy
was caused by indirect cost charges for the June 2011 reporting period being
included on an FFR in the subsequent reporting period due to an accounting
software issue. Because the subsequent FFR submissions were both accurate and
timely, we do not consider the two inaccurate FFRs to be material.




        5
            Effective October 1, 2009, the Financial Status Report (FSR) was replaced by the Federal
Financial Report (FFR). We use the term FFR throughout the report refer to the required periodic
financial reporting Brandeis was required to submit to BJA.




                                                 - 10 ­
2011-PM-BX-K001

      Brandeis submitted all four of the required FFRs for the cooperative
agreement. We determined all of the FFRs were submitted on time, and Brandeis’s
accounting records matched the information in the FFRs.

2011-PM-BX-K002

      Brandeis submitted all four of the required FFRs for the cooperative
agreement. We determined all of the FFRs were submitted on time and Brandeis’s
accounting records matched the information in the FFRs.

Progress Reports

       BJA requires awardees to complete and submit progress reports as a means
to monitor the performance of award-funded programs. Progress reports should
describe the status of the project, a comparison of actual accomplishments to the
objectives, or other pertinent information. According to the OJP Financial Guide,
progress reports are to be submitted within 30 days after the end of the reporting
periods, June 30 and December 31. Funds or future awards may be withheld if
reports are not submitted or are excessively late.

      Between 2008 and 2012, Brandeis submitted all 12 of the required
semiannual progress reports for its 4 cooperative agreements and we found that
Brandeis was able to provide adequate documentation to support the information
contained in its progress reports.

      In reviewing the reports for timeliness of submission, we found that Brandeis
did not submit 4 of its 12 reports on time, with the 4 reports being between 15 and
98 days late. Consequently, on several occasions, BJA withheld funding from
Brandeis until the reports were submitted. A Brandeis official told us a potential
cause for the delayed submissions was turnover among staff members assigned to
progress reporting duties. Additionally, a Brandeis official told us there was
confusion about how progress reports were to be submitted. The absence of
complete and timely periodic progress reports impairs BJA’s ability to monitor
cooperative agreement activity and increases the risk that projects funded by
cooperative agreements could be delayed, or that cooperative agreement funds
could be wasted or used for unallowable purposes. We recommend Brandeis
strengthen its policies and procedures to enable the timely submission of its
progress reports.

Drawdowns

      The term drawdown is used to describe the process by which a recipient
requests and receives funds under a grant award agreement. The OJP Financial
Guide establishes the methods by which the awarding agency makes payments to
grantees. The methods and procedures for payment are designed to minimize the
time that elapses between the transfer of funds by the awarding agency and the


                                      - 11 ­
disbursement of funds by the grantee. Grantees may be paid in advance, provided
they maintain procedures to minimize the time between the transfer of funds by the
awarding agency and the disbursement of funds by the grantee. The Financial
Guide recommends that funds be drawn to handle disbursements to be made
immediately or within 10 days.

       We interviewed Brandeis officials, reviewed drawdown procedures, and
verified the deposits of grant funds into the Brandeis bank account. We found that
Brandeis’s grant accountant calculated drawdowns based on expenditures denoted
in accounting records as being funded by one of the cooperative agreements.
These expenditures were also reported on Brandeis’s monthly profit and loss report
for each cooperative agreement. Based on our analysis, we determined that
Brandeis adhered to the OJP Financial Guide’s minimum cash on hand requirement
and properly requested funds based on actual expenses.

Indirect Costs

       Indirect costs are costs of an organization that are not readily assignable to a
particular project, but are necessary to the operation of the organization and the
performance of the project. According to a Brandeis official, Brandeis relied on its
approved indirect cost rate agreements as its cost allocation methodology to ensure
the cooperative agreements were charged their fair share to support common
expenses shared among cooperative agreements such as rent and personnel. To
determine whether Brandeis complied with its indirect cost rate, we selected 40
transactions worth $170,955 from the four cooperative agreements. To test
compliance, we compared each indirect transaction with its corresponding direct
cost base to determine if the transaction was in compliance with the indirect cost
rate agreement. We concluded that all 40 transactions were in compliance with
Brandeis’s indirect rate agreement.

Budget Management and Control

       BJA approved a detailed budget for each of the four cooperative agreements
we reviewed during our audit. The OJP Financial Guide requires that recipients
spend award funding according to defined budget categories. However, to meet
unanticipated program requirements, recipients are permitted to move up to 10
percent of the total award between approved budget categories. Transfers between
approved budget categories in excess of 10 percent of the total award must be
approved in advance by the awarding agency. In addition, the Financial Guide
requires that all grantees establish and maintain an adequate system for accounting
and internal controls.

      Brandeis received a final Financial Clearance Memorandum for each of its
cooperative agreements that contained the approved budget for each cooperative
agreement. According to Brandeis’s Director of Sponsored Program Accounting,
Brandeis’s accounting software package produces a transaction detail report for
each cooperative agreement, including the total grant expenditures summarized by




                                        - 12 ­
each approved budget category. Brandeis used information from this transaction
detail report to ensure that it remained within its approved budget for each award.

      For each grant, we compared the total expenditures by budget category from
the Brandeis accounting system to the budget categories established by BJA’s final
budget revision. We found that Brandeis spent cooperative agreement funds in
accordance with the budgets approved by BJA. 6

Monitoring of Contractors

       According to the OJP Financial Guide, recipients should ensure that they
monitor organizations under contract in a manner that is in compliance with their
own overall financial management requirements. Additionally,
28 C.F.R. § 70.47 requires that recipients conduct assessments of contractor
performance and document a contractor’s compliance with the terms and conditions
of the contract. Brandeis spent a total of $796,684 from its four cooperative
agreements on contractors, including contractors that provided technical assistance
to states regarding PDMPs and developed a website to serve as the national
clearinghouse of PDMP best practices. We interviewed a Brandeis official and were
informed that there was no evaluation of the contractor’s internal controls, financial
management systems, or ability to adhere to the terms and conditions of the
contract and the award-funded program. Additionally a Brandeis official told us he
thought it was unnecessary to monitor the technical assistance contractors because
he interacted with them routinely as part of the project implementation process.
He also said he was generally unfamiliar the monitoring requirements specified in
the OJP Financial Guide and C.F.R.

       Close scrutiny of contractor performance enables grant objectives to be met
and contractors to operate in compliance with the terms and conditions of the
award-funded program. For example, the website development consultant
expenditures exceeded the contract amount of $20,000 by $7,113. Also, as
discussed previously, Brandeis did not require consultants to submit time and
activity reports as required by the OJP Financial Guide, resulting in a total of
$595,001 in unsupported consultant expenditures for the 4 cooperative
agreements. A systematic review of contractor performance and documentation of
contractor compliance with the contract may have led to earlier detection of the
contractors’ non-compliance with these requirements. We recommend that
Brandeis develop policies and procedures to better document contractor
performance as well as contractor compliance with award-funded contract.



        6
          While we found that Brandeis’s spending conformed with the BJA-approved budgets, at the
time of our audit Brandeis’s accounting records misclassified expenditures for consultants to attend
conferences as travel expenditures, so it appeared as though travel expenditures for the 2008-PM-BX­
K017 cooperative agreement varied from the budgeted amount by more than 10 percent of the total
award. When we brought this misclassification to Brandeis’s attention, a Brandeis official corrected the
error.




                                                 - 13 ­
Subrecipient Monitoring

        The purpose of subrecipient monitoring is to ensure that federal program
funds are spent in accordance with the federal program and grant requirements,
laws, and regulations. The OJP Financial Guide requires that recipients monitor any
subrecipients and ensure that all programmatic and fiscal responsibilities are
fulfilled. To evaluate Brandeis’s subrecipient monitoring, we interviewed Brandeis
officials and reviewed related documentation. The budget for Brandeis’s 2009-PM­
BX-K044 award allocated $609,046 to the IJIS Institute as a subrecipient to be the
project manager of its information sharing project, and the 2008-PM-BX-K017
agreement allocated $65,000 to a subrecipient to perform data analysis.

        A Brandeis official told us Brandeis did not have written policies regarding
subrecipient monitoring and that he did not monitor the subrecipients because he
believed BJA was monitoring them. As a result, he assumed that all subrecipient
invoices were in compliance with award requirements. He also said that the IJIS
Institute performed all of its agreed upon tasks under budget, but that it had
subsequently billed Brandeis for the remaining amount. However, the Brandeis
official told us he was unsure what project the remaining funds were spent on and
whether the funds were spent in a manner consistent with the 2009-PM-BX-K044
award’s program narrative. As a result, we expanded testing of this subrecipient.

       To determine whether the IJIS Institute complied with the terms and
conditions of its contract with Brandeis, as well as requirements contained in the
OJP Financial Guide, we reviewed the IJIS Institute’s contract and invoices, and we
interviewed Brandeis and IJIS Institute officials. We identified four contract
provisions and two OJP Financial Guide requirements that the IJIS Institute did not
fully meet. We discuss these issues in greater detail below.

Unapproved Changes to the Statement of Work

       The IJIS Institute’s contract with Brandeis required that all changes to the
statement of work be approved in writing by the Brandeis authorizing official. Also,
the OJP Financial Guide required that all expenditures must be necessary to the
project. We found that BJA often communicated directly with the IJIS Institute and
that BJA initiated seven changes to the scope of the statement of work that were
not approved by Brandeis’s authorizing official. During the project’s
implementation an alternate information sharing system was developed. The
alternate information sharing system was privately financed and initially could not
share information with the BJA sponsored system. Consequently, it became
necessary to develop a national architecture which would ensure both information
sharing systems adhered to the same information security standards and were able
to share information with each other.

       Additionally, the scope of the project was changed to allow for software to be
commercially purchased rather than developed internally which made additional
funds available to work on the national architecture. We also found that the IJIS
Institute spent $7,301 of award number 2009-PM-BX-K044 funds for a staff retreat


                                       - 14 ­
and travel to a pharmaceutical diversion summit in Orlando, Florida, that was not
included in the contract’s statement of work, budget, or Brandeis’s approved
budget. Additionally, the conference occurred in April 2012, after the information
technology project was completed.

       When grantees fail to properly monitor subrecipient expenditures, OJP funds
are at risk for fraud, waste, and abuse. By failing to require subrecipients to
receive prior written approval from Brandeis for all changes to statements of work,
Brandeis could not be sure that funds are being spent as intended. As a result, we
question $7,301, the amount charged to the cooperative agreement for the staff
retreat and conference as unallowable.

Accountable Property Not Inventoried

       As discussed in greater detail below in the Accountable Property section of
this report, Brandeis did not ensure that the IJIS Institute adhered to the inventory
provisions of its contract. In addition to the provisions in the contract, the OJP
Financial Guide also required a bi-annual inventory of equipment purchased with
federal funds. The IJIS Institute project manager told us that no inventory was
conducted of the information technology equipment purchased for the agreement-
funded project. Also, neither the Brandeis official who acted as the subrecipient’s
project manager nor the BJA IT policy advisor could guarantee that the information
technology equipment was being used according to the project’s purpose. In our
judgment, closer monitoring of the subrecipient could have enabled Brandeis to
guarantee the equipment was being used according to the project’s purpose and
decreased the risk of fraud, waste, and abuse of federal funds.

Direct Contact with BJA

        Brandeis’s contract prohibited the IJIS Institute from directly communicating
with BJA without the prior written approval of Brandeis’s authorizing official.
However, we found that the IJIS Institute was in frequent contact with BJA and, as
discussed previously, the scope of the project was changed without the authorizing
official’s approval. Direct contact with the sponsor impaired Brandeis’s ability to
monitor the IJIS Institute’s progress because Brandeis could not track all of the
sponsor’s requests and ensure were completed by the IJIS Institute.

Third Party Contracts

       The IJIS Institute’s contract with Brandeis prohibited the IJIS Institute from
entering into contracts on behalf of the project without the prior approval of the
authorizing official. A Brandeis official told us the IJIS Institute contracted with a
vendor to purchase $46,005 of computer equipment without the official’s prior
approval. Officials from the IJIS Institute said they selected the particular vendor
because the vendor was a wholesaler. However, the IJIS Institute did not conduct
an analysis to document that the vendor provided the lowest cost or best value.
Unapproved third party contracts can potentially place the project’s implementation




                                        - 15 ­
at risk because potentially unqualified third parties can complete the work without
obtaining the approval of Brandeis or BJA.

       We recommend that Brandeis remedy $7,301 in unallowable expenditures
incurred by the IJIS Institute. Additionally, we recommend that Brandeis develop a
comprehensive subrecipient monitoring program to ensure that its future
subrecipients comply with its internal requirements, as well as those established in
the OJP Financial Guide.

Compliance with Other Cooperative Agreement Requirements

       In addition to the general cooperative agreement requirements, we tested for
compliance with terms and conditions specified in the cooperative agreement award
documents. The four awards contained 79 special conditions. We found that
Brandeis complied with most of the special conditions we tested, except for the
findings previously reported and those discussed below.

        The 2011-PM-BX-K001 award included a special condition regarding sole
source procurement whenever a contract’s cost exceeded $100,000 and there had
been no open competition in obtaining the contractor’s services. In addition to this
special condition, the OJP Financial Guide requires that whenever a non-competitive
contract exceeds $100,000, the recipient must submit a Grant Adjustment Notice
requesting sole source approval. We determined Brandeis’s approved budget and
consultant contract allocated $177,000 to a technical assistance consultant, but
that Brandeis did not use open competition to select the consultant. Brandeis
officials told us they thought it was unnecessary to solicit other competitors
because the consultant had extensive experience and a positive relationship with
BJA. A Brandeis official believed that any additional approval was unnecessary
because BJA had released Brandeis from meeting the sole source condition when
BJA had obligated funding. However, we reviewed the Grant Adjustment Notices
associated with this cooperative agreement and determined while a special
condition was removed; it was related to permission to use award funds. Also, we
identified no correspondence from BJA that required Brandeis to pay the consultant
in excess of $100,000. As of September 2012, Brandeis had paid the consultant
$108,167 and, therefore, was required to obtain sole source approval via a Grant
Adjustment Notice.

      We recommend Brandeis enhance its policies and procedures to ensure
compliance with grant special conditions.

Accountable Property

2009-PM-BX-K044 Award

       The OJP Financial Guide states that award recipients and subrecipients are
required to conduct a bi-annual inventory of equipment purchased with award funds
and to retain property records according to the conditions specified within the OJP
Financial Guide. The guide also states that recipients must establish an effective


                                       - 16 ­
system for property management. Additionally, Brandeis’s internal policy required
Brandeis to maintain detailed records of all property and equipment within its
accounting system and to receive property it purchased into its accounting system.
Lastly, Brandeis’s contract with its subrecipient, the IJIS Institute, required IJIS
Institute to inventory and dispose of equipment according to federal guidelines. We
determined the IJIS Institute purchased $46,005 of computer server equipment for
the purpose of enabling 2 to 4 states to share pharmaceutical diversion information.

       When we interviewed officials from Brandeis and the IJIS Institute to
determine if an inventory had been conducted, we were told that no bi-annual
inventory of the information technology equipment purchased by the 2009-PM-BX­
K044 agreement had been conducted. In addition to the inventory requirement,
the OJP Financial Guide also requires that cooperative agreement recipients be
responsible for ensuring that subrecipients fulfill all fiscal and programmatic
responsibilities. In our judgment, the subrecipient was responsible for conducting a
biannual inventory and Brandeis was responsible for ensuring that the IJIS Institute
conducted the inventory. We determined that the information technology
equipment was located at a state board of pharmacy, but neither the IJIS
Institute’s project manager nor the property custodian for the state board of
pharmacy could guarantee that the information technology equipment was being
used to further the goals of the cooperative agreement.

       Brandeis’s failure to ensure that an inventory had been performed has placed
federally purchased property at risk for misuse and unauthorized requisition.
Periodic inventory, as well as an inventory control system, are valuable controls
against fraud, waste, and abuse of valuable property. We recommend the Brandeis
enhance its financial policies and procedures to better track equipment purchased
by subrecipients and ensure a biannual inventory is conducted.

Program Performance and Accomplishments

Grant 2008-PM-BX-K017

      The objective for the 2008-PM-BX-K017 cooperative agreement was to
provide technical assistance to state prescription drug monitoring programs. To
accomplish this objective, Brandeis said it would provide or develop the following
work products: (1) serve as the primary provider of technical assistance and
information to states that are enhancing or implementing a Prescription Drug
Monitoring Program (PDMP), (2) develop a website to serve the states’ needs and
provide easy and immediate access to technical assistance, (3) host a national
conference on PDMPs as well as four regional conferences with PDMPs, (4) produce
and electronically distribute a bi-monthly newsletter, and (5) advise and assist
grantees in collecting and reporting on PDMP performance measures, through
contracting with a third party performance measurement consultant. 7 In order to

        7
          The purpose of a Prescription Drug Monitoring Program is to enhance the capacity of
regulatory and law enforcement agencies to collect and analyze controlled substance prescription data.




                                                - 17 ­
meet its programmatic objectives, Brandeis allocated $603,004 or 90 percent of its
approved funding to the “contractual” budget category. To assess if Brandeis
accomplished its performance objectives, we interviewed Brandeis officials and
reviewed progress reports, publications, conference agendas, and expenditures.
Based on our review of the documentation provided by Brandeis, we concluded
Brandeis met its performance objectives for the award.

2009-PM-BX-K044

       The objective for the 2009-PM-BX-K044 cooperative agreement was to
establish a national clearinghouse of prescription drug monitoring information,
provide technical assistance to state PDMPs, and implement the Phase III Extension
of the Interstate Information Sharing Project. To accomplish this objective,
Brandeis said it would: (1) assist state PDMPs by providing a clearinghouse of
information, evaluation results and tools, statistics, epidemiological examinations,
and other materials relevant to PDMP administrators, state and federal policy
makers, and researchers; (2) advance the methodology for assessing PDMP
effectiveness and undertake and encourage assessment and evaluation to identify
and improve PDMPs’ benefits; and (3) upgrade the PMP Hub software and
demonstrate that it can share real patient information among four participating
states. To assess if Brandeis met its performance objectives, we interviewed
Brandeis, IJIS Institute, and BJA officials and reviewed progress reports,
publications, technical assistance logs, and email correspondence. Based on the
information we reviewed, it appears that Brandeis met its program objectives.
However, we noted that the Interstate Information Sharing Project objective was
completed approximately 17 months late. Officials from Brandeis and the IJIS
Institute attributed the delays to a fundamental shift in how the software was
developed and challenges in getting three participating states to finalize
memoranda of understanding to allow the exchange of real patient data between
the states. A BJA official told us that, despite the delay, the interstate exchange of
information identified “doctor shoppers” and potentially saved lives.

2011-PM-BX-K001

       The objective for the 2011-PM-BX-K001 cooperative agreement was to
provide technical assistance to PDMPs. To accomplish this objective, Brandeis said
it would: (1) serve as the national technical assistance provider for state PDMPs,
(2) develop and maintain a website, (3) distribute a bi-weekly newsletter, and (4)
plan one national and two regional conferences for prescription drug monitoring
programs. In order to accomplish its programmatic objectives Brandeis allocated
$286,101 to consultants and $83,395 to personnel to ensure project completion.

      In order to determine if Brandeis was achieving its intended performance
accomplishments, we reviewed grant expenditures, program performance reports,
meeting conference agendas, biweekly newsletters, and a website. Based on our
review, it appears that Brandeis is on track to meet its programmatic
accomplishments.




                                       - 18 ­
2011-PM-BX-K002

       The objective for the 2011-PM-BX-K002 cooperative agreement was to
continue the operation of its national center of excellence, which would serve as a
clearinghouse of information beneficial to state PDMPs. To accomplish its objective,
Brandeis said it would: (1) conduct studies to improve the benefits of PDMPs,
including develop a methodology for assessing PDMP effectiveness; (2) develop six
to ten publications documenting PDMP best practices; and (3) develop four to six
additional articles or papers focusing on ongoing developments at state PDMPs. To
accomplish its programmatic objectives, Brandeis allocated $207,568, or 42% of its
budget, to anticipated personnel and fringe benefits expenses.

       To determine if Brandeis was achieving its stated goals and objectives, we
reviewed grant expenditures, program performance reports, the Center of
Excellence website, and a publication developed by Brandeis in support of the
project. Based on our review of this information, it appears that Brandeis was on
track to meet the goal and objectives of this cooperative agreement.

Conclusions

       We found that Brandeis did not fully comply with grant requirements in the
areas we tested. We found weaknesses in Brandeis’s system of internal controls
specific to its financial operations. We also found consultant expenditures that were
over the consultant rate limit and were not supported by employee time and
activity reports. We identified unallowable conference expenditure charges to the
2009-PM-BX-K044 grant, as well as deficiencies in progress reporting, monitoring of
contractors, subrecipient monitoring, and non-compliance with other grant
requirements. As a result of the deficiencies, we questioned $608,302 in award
expenditures.

Recommendations

We recommend that OJP:

1.	   Ensure Brandeis implements policies and procedures that ensure accountability
      over federal funds.

2.	   Remedy $595,001 in unsupported consultant expenditures.

3.	   Ensure Brandeis implements policies and procedures that ensure consultant
      invoices are supported by time and activity reports.

4.	   Remedy $60,068 in unallowable consultant payments for exceeding the OJP
      Financial Guide $56.25 per hour limit on consultant pay.

5.	   Ensure Brandeis develops policies and procedures to prevent consultant
      compensation from exceeding $56.25 per hour without BJA prior approval.




                                       - 19 ­
6.	   Ensure Brandeis strengthens its policies and procedures related to the timely
      submission of its progress reports.

7.	   Remedy $23,923 in unallowable costs charged to the 2008-PM-BX-K017
      ($22,167 for this grant specifically) and 2011-PM-BX-K001 ($1,757 for this
      grant specifically) cooperative agreements.

8.	   Ensure Brandeis implements contractor monitoring policies and procedures to
      better document contractor performance as well as contractor compliance with
      the contract.

9.	   Remedy $7,301 in unallowable expenditures charged to the 2009-PM-BX-K044
      award for conference and staff retreat expenses.

10.	 Ensure Brandeis implements a subrecipient monitoring program to ensure that
     its subrecipients comply with contract requirements and DOJ standards.

11.	 Ensure Brandeis implements policies and procedures that ensure the routine
     monitoring of compliance with award special conditions.

12.	 Ensure Brandeis implements policies and procedures that ensure an inventory
     of accountable property is conducted bi-annually.




                                        - 20 ­
                                                                     APPENDIX I


              OBJECTIVES, SCOPE, AND METHODOLOGY


       The objective of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines and the terms and
conditions of the cooperative agreements, and to determine program performance
and accomplishments. The objective of our audit was to review performance in the
following areas: (1) internal controls, (2) personnel, fringe benefits, and non-
personnel grant expenditures, (3) financial and progress reporting, (4) drawdowns,
(5) Indirect costs, (6) budget management and control, (7) monitoring of
contractors, (8) subrecipient monitoring, (9) compliance with award special
conditions, (10) accountable property, and (11) program performance and
accomplishments. We determined that matching costs and program income were
not applicable to these awards.

       We conducted this audit in accordance with generally accepted government
auditing standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

       Our audit concentrated on, but was not limited to, the Cooperative
Agreements which respectively received their funding on September 30, 2008,
September 14, 2009, August 26, 2011, and August 31, 2011. We audited BJA’s
(1) FY 08 Harold Rogers Prescription Drug Monitoring Training and Technical
Assistance Program, (2) FY 09 Solicited, Harold Rogers Prescription Drug Monitoring
Program Training and Technical Assistance (3) Prescription Drug Monitoring
National Training and Technical Assistance Center – Technical Assistance Program
(4) FY12 Solicited– Substance Abuse/Mental Health.

      Collectively, these cooperative agreement awards totaled $3,826,950 in BJA
funding. Through October 1, 2012, Brandeis drew down $2,757,979 from all four
cooperative agreements.

       We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our report,
the criteria we audited against are contained in the applicable Code of Federal
Regulations and OMB Circulars cited in the OJP Financial Guide, Brandeis University
Financial Policies, General Services Administration Travel Regulations, and the
award documentation for each respective grant.

       In conducting our audit, we tested Brandeis’s grant activities in the areas we
previously cited above. In addition, we reviewed the internal controls of Brandeis’s
financial management system specific to the management of DOJ grant funds
during the grant period under review. However, we did not test the reliability of the
financial management system as a whole and reliance on computer based data was
not significant to our audit objectives. We also performed limited tests of source


                                        - 21 ­
documents to assess the accuracy and completeness of reimbursement requests
and financial status reports. These tests were expanded when conditions
warranted. Finally, we tested accountable property purchased with grant funds.




                                      - 22 ­
                                                                                   APPENDIX II



                 SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS: 8                                                               AMOUNT            PAGE

Unsupported Costs
     Consultant expenditures                                                     $ 595,001                  9

Unallowable Costs
      Consultant fees                                                                60,068                 9
      Incorrect cooperative agreements charged                                       23,923                 9
      Conference Participation                                                        7,301                15

Gross Questioned Costs:                                                          $686,293
Less Duplicative Questioned Costs 9                                              ($77,647)

TOTAL QUESTIONED COSTS                                                           $608,646




        8 Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or are
unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of funds,
or the provision of supporting documentation.

        9
            We questioned costs related to unsupported and unallowable consultant expenditures. These
questioned costs relate to identical expenditures – though questioned for different reasons – and, as a
result, that portion of questioned costs is duplicated. We reduced the amount of costs questioned by the
amount of this duplication.




                                                - 23 ­
                                                                                                APPENDIX III


                      BRANDEIS UNIVERSITY

               RESPONSE TO THE DRAFT AUDIT REPORT




                   Brandeis University
                   " I ~ South Slf~t
                   Waltham. Mil
                   02454




February 11. 2014

Thomas O. Puer.ler
Regional Audit Manager
Philadelphia Regional Audil Office
Officc oflhc inspector General
U.S. Department of Justice
701 Market Street, Suite 201
Philadelphia, PA 19106

Re: 2008-PM-8X-KOI7
   2009·PM-BX-K044
    2011-PM-8X-KOOI
    2011-PM-BX-KOO2

Dear Mr. PUCl""LCI',

Brandeis University (the "Universily") submits these comments in response 10 the January 29. 2014 draft audit
report tilled "Audit of\hc Juslicc Programs Bureau of Justice Assistance Cooperative Agreements Awa rded to
Brandeis University, Waltham, Massachusctts" (hereinafter Ihe "Draft Audit Report").
The University considers the audit process 10 be an integral tool in the University's ongoing program ofintcmal
controls. Regular audits both internal and external facilitate management's abilit y to identify those areas where
internal controls may require further enhancement and those that arc performing effectively. In that spirit, we
have analYLcd each of the auditor's findings and related recommendations herein and, while we may not agree
with each one, we will use th is report to improve our overall system of compliance and controls.
We note. however, that the Draft Audit Report does include some draft or initial findings related to what are
tenned deficiencies in the Uni vers ity 's system of internal controls, unsupported and unallowable expenditures,
inaccurate and late grant reporting, inadequate contractor monitoring, inadequate subret:ipient monitoring,
noncompliance with special conditions and deficiencies in inventory contro ls. As discussed in more detail
below, th e Uni versity respectfully takes exception to some of the Draft Audit Report's initial findings.
Specifically, the University docs not concur with the findings related to unsupported consultant expenditures of
$ 595,001 and unallowable consultant fees ofS 60,068. The Universi ty concurs with the findings related to
incorrect cooperative agreements being charged totaling S 23,923 and the unallowable confercncc participation
by II subcontractor amounting to S 7,301.


001 Draft audi t response
       Response to Specific Rceommendation~
    I) Ensure that Brandeis implemt:nts policies and procedures that ensure accountability over federal funds.

        The Uni \'ersity does not concur with Ihis finding, as it maintains that it currently has policics and
        procedures that effectively ensure accountability over federal funds, and believe that this




                                                      - 24 ­
   recommendation is beyond the scope of the audit conducted. The audit did not assess the University's
   overall system of internal controls, but only tested the controls as th ey pertained to the cooperative
   agreements audited. The University maintains policies and procedures related to management of federal
   awards which are available on the Universit y web site and stated in the Disclosure Statement (OS 2)
   originally filed in December 1998 and amended in 2011. The University, which is classified by the
   Carncgie Foundation for the Advancement of Teaching as a Research Uni versity wit h very high research
   activity, continuall y reviews its policies and procedures to ensure that best practice is employed in
   managing busi ness operations and compliance with state and federal regulations, specificall y OMS
   circulars A-21 , A- IIO and A- 133. For example, in the imerest of continuous improvement, the
   University fonned a Research Steering Committee to examine the roles and responsibilities and the
   policies and procedures covering the entire life cycle of federal funding, from proposal development to
   closeout. In 2012, a well-respected faculty member and fonner Provost were appoi nted as Senior
   Advisor to the Provost for Research and Senior Research Officer to oversee the entire research
   enterprise. And the University continues to investigate other avenues for improvement, from investing
   in new infonnation technology to combining the pre- and post- award offices to ensure efficient
   oversight of ex ternal funding. Finally, as previously stated, the Univmity has regul ar internal and
   external audits to ensure that federal funds are managed properly. As an indication of its strong internal
   controls, the Uni versity's annual OMS A-I 33 single audits during the past 15 years ha ve contained
   unqualified audit opinions and reported no material weaknesses in imcmal comrol over compliance.


2) Remed y S 595,00 I in unsupported consultant ex penses.

   The University docs not concur with the assertion that consulting expenditures were unsupported in the
   amoun t of $ 595,001. All consultants working on the cooperative agreements were paid on the basis of
   properly submitted invoices that were consistent with the identification of the cons ultants, their rates and
   their level o f effort in the proposals for funding. The audit report concludes that the University spent
   cooperative agreement funds in aecordance with the budgets approved by SJA. The report also
   concludes thaI the University met its perfonnance and programmatic objectives for all of the
   agreements. There is therefore no basis to question thc fact thai the consultants did the work lhat they
   were engaged to do. The University does agree that the consultant invoices did nOI contain specific
   detai l as to actual hours and dates worked. However, when the auditors requested additional supporting
   documentation for paid consultant invoices, th ey were provided files with the technical assistance
   service logs for the POMP Training and Technical Assistance Center, from February 2009 through April
   20 13.111e logs record dates, services provided, and consultants involved in prov iding the services (Jim
   Giglio, Chris Baumgartner, John Eadie and Pat Knue). The services are coded according to BJA's
   activity categori es (described in the attached Word file).

   The Uni versity respectfully maintains that it had adequate support for its payments to consultants on
   these projects, especially gi ven the fact that the perfonnance in all instances was satisfactory and that the
   projccts ..... ere closely managed by a team o f key personnel led by Dr. Kreiner. While the consultants'
   in vo ices may not have included detai ls of hours worked, the integrity of the work perfonned and paid
   for was not questioned by the auditors. The Univmi ty appreciates the points raised by the audit and
   now requires consultants to include th e dates and hours worked on invo ices submitted for payment. But
   we do not believe that costs totaling $595,001 are without support and should be questioned.


3} Ensure Brandeis implements policies and procedures that ensure consultant in voices are supported by
   time and activity reports.




                                                 - 25 ­
   The University concurs with th is recommendation and has implemented the necessary policies and
   procedures requiring that consultants submit details of hours worked by dllte in suppo rt ofinvoiees
   submitted for payment.



4) Remedy $ 60,068 in una llowable consultant payments for exceeding the OJP Financial Guide $ 56.25
   per hour limit on consultant pay.

   The University does not concur with this recommendation. The University budgeted for and paid the
   tonsultant in question at a rate of$450 per day, consistent with the OJP Financial Guide's limit on
   consultant pay and with the relevant special condition contained in the cooperative agreements. The
   auditors detcnnincd that th~ University'S standard 7 hour per day 35 hour work wcck for its employe~s
   should be applied to the consultant, resulting in an hourly rate higher than the $56.25 hourly limit. The
   University asserts, however, that a consultant, as an independent oontraetor, establishes the length of
   hislher own work day and that (s) he is not bound by the University's policy for employees. The Office
   of Justice Programs own guidance, in its Grants 101 website under budget development, refers to an 8·
   hour day for consultant fees (hltp:llojp.gov/ b'l"llntslQ lldevelopbudgel.htm). More speci fi cally, the
   Univcrsity has a pol icy, entitled Consultan ts and Honorariu ms (7/ 1 12005), under which there is a fonn
   with a series of quest ions used to determine consultant status. One of these questions is, " Will they set
   their own priorities on time, amount of effort, and hours of work to accomplish services within stated
   time frameT It is clearly anticipated that, as part of the very nature of a consultancy, the consultant
   should establ ish hislhcr own work day. This consultant in fact worked on the basis of an 8 hour day, and
   thc $56.25 per hour limit was therefore not exceeded.


5) Ensures Brandeis dcvelops policies and procedures to prevent eonsultanf s compensation from
   exceeding $ 56.25 per hour wi thout BJA prior approva l.

   As stated in the Universit y's response to Recommendation II 4, the University maintains that it has been
   and is compliant with this (;ompensation policy, and thcrefore does not concur. Thc Un iversi ty does
   agree that explicitly oommunicating the length ofconsuhant work days or hourly rates to BJA will
   eliminate the confusion concerning th is matter. Of course, the University does recognize and will
   oomply with the requirement to seek prior approval should it be ne<::essary to compensate a consultant at
   a rate higher than $56.25 per hour.



6) Ensure Brandeis strengthens its policies and procedures related to the timely submission of its progress
   reports.

   The University does not concur with the prcmise that its policies and procedures are insufficient to
   ensure timely reporting. The audit report indicates that there were 26 financial reports required under
   the cooperative agreemcnts and that none were unt imely in a material way. There were 12 required
   semiannual progress reports under these agreements, 8 of which wcre submitted in a timely fashion.
   While the University agrees that progress reports should always be submittt-d on time, there !lrc
   explanati ons as to why, in the comparatively rare instances oflate submissions, this occurred.




                                                - 26 ­
   Two progress reports were submitted late because of technical problems in inputting infonnation to the
   BJA TTARS website. In each case, the problems were reso lved after extensive telephone conversations
   with stllfffrom the TTA RS Help Desk. In at least one of the cases, the websi te was having technical
   difficulties. The University has been addressing this issue by inputting progress reports several days
   before the due date, to allow ti me to resolve any technical issues that may arise. The other two progress
   reports that were more substantially late in volved reports for new projects awarded with the special
   condition that fun ds could not be used until the final budgel was approved and the condition removed.
   Because there was no project activity in the first quarter due to that restriction, the University did not
   real ize that it was necessary to submit the progress reports. The reports were submi tted, indicating that
   there had been no activity, as soon as BJA notified us that this was necessary, and will continue to do so
   in the future should similar circumstances arise.

   The University remains committed to ensuring that progress reports are submitted within 30 days after
   the end of stated reporting periods, June 30 and December 31.



7) Remedy S 23,923 in unallowable costs charged to the 2008-PM-BX-KOI 7 ($22,167 for th is grant
   specificall y) and 20 II-PM-BX-KOO I ($ 1,757 for this grant speci fically) cooperative agreements.

   The Uni versity concurs with this finding, but wou ld like to note that the $22.167 charged to 2008-PM­
   BX-K017 is an otherwise allowab le cost that should instead have been charged to 2009-PM-BX-K044.
   Both cooperative agreements were Harold Rogers Prescription Drug Monitoring Program Training and
   Technical Assistance and called for the same activities. At the time ofthcse charges, the pcrfonnance
   period of the 2008 agreement and the 2009 agreement overlapped, as the fonner was in a no-cost
   elltension period. The charges in qucstion related to reserving space at a hotel for a National Meeting.
   Bl A has since changed the way in which it funds similar program activities occurring over a number of
   years, in part to avoid situations such as this. For example, the most recent Training and Technical
   AssiSlilnce cooperati ve agreemen t, 201 l-PM-BX-KOOI, has been amended twice to continue funded
   activities from 101 1/ 11 - 3/31115 , as opposed to issuing new agreements each year. The University
   therefore requests rel iefofS 22, 167 based on perfonnance for 2008-PM-BX-KOI7.



8) Ensure Brandeis implements contractor monitoring policies and procedures to better documcnt
   contractor perfonnance as well as contractor compliance with the contract.

   The University has recently completed a thorough overhaul of its procurement system
   which included implementation of new procuremcnt software and the centralization of
   the University's procurement function. In addition, the University implemented a
   procurement marketpluce for streamlined on-line purchasing of goods and SCtViccs,
   issued new best practice procurement policies and procedures, conducted extensive
   training of personnel and combined the procurementlaccoWlts payable functions for
   improved coordination and communication.

   These improvements made by the University should prevent a cont ractor being paid more
   than the approved contract amount without an approved change order bcing processed.
   The University concurs with the finding regarding the $ 7, 113 overpayment to the website design
   consultant. The new systems, policies, procedures and related training should     ensure that this does




                                                - 27 ­
   not occur aga in. The Univmity seeks relief based on the above stated ehanges and the auditors repeated
   assen ions that the Uni versity had met the objectives of the cooperative agreements.



9) Rcmedy S 7,301 in unallowable expenditures charged to the 2009-PM-BX-K044 award for conference
   and staff retreat expenses.

   The University concurs with the recommendation.


10) Ensure: Brandeis implements a subrecipient monitoring program to ensure that it subrecipients comply
    wit h contract requirements and 001 standards.

   The University docs not concur with the premise that it lacks an effective subrccipient monitoring
   program. The University complies wit h OMB circulars A-2 1. A-1 1O and A-1 33 with respect to
   subrecipicnt monitoring. As previously stated, the Uni versi ty conducts in ternal and external audits to
   test compliance with grant management, including subrecipient monitoring. All of the University's
   subrecipient agreements contain an audit provision, requiring subrecipients to comply with OM B
   Circular A-l33 and to provide th e Univmit y with a copy of the reponing package submi tted to the
   Federal Clearinghouse when the schedule of findings and questioned costs disclose audit findings
   related to lhe agreement, as well as copies of responses to the auditor' s repon and a plan for cOl1"«'tive
   action, and the Uni versity reserves the right to adjust payment or tenninatc the agreement (Audited
   financial repons and access to inspect records and infonnation are required for subrecipients not subject
   to th e provisions of A- l 33). In the case of the DOJ awards, the special conditions were flowed down
   to the subrecipient and attached as an Appendix to the agreement. Funher, regular financial and
   programmatic repon ing is required, so that deficiencies in pe:rfonnance or finances may be identified.

   As previously discussed in the response to Recommendatio n # 8, th e University has made extensive
   changes to its procurement systems, policies and procedures that will ensure vendor compliance with
   contract requirements. Most imponant to this recommendation is that the University conducted
   extensive training with respect to qual ified vendors, sole source procurement requirements and required
   approved change orders when original contracts are to be exceeded.



11) Ensure Brandeis implements policies and procedures that ensure the routine monitoring of compliance
    with award special conditions.

   The Universit y does not concur with the premise that it lacks policies and procedures to ensure
   compliance with award special conditions. The auditors stated in the Draft Aud it Repon that the
   Univmity had met most of the 79 special conditions included in the four(4) cooperative agreements
   audited. The Uni versity was found to be non-compliant with only the two following special conditions,
   which were previously addressed in responses to recommendations #4, 1t8 and #10:

           1) Consultant'S hourly rale of 56.25 and Daily rate ofS 450 (8 hour day)
           2) Sole Source contract limits




                                                - 28 ­
       The University has taken the necessary steps and implemented appropriate policies and procedures to
       ensure tha t award special conditions are mct, including specifying in budgets either the hourly rate of
       collSuitnnts or the anticipated length of thei r work day, and creating and publicizing a new procurement
       policy entitled Sole Source/Price Justifi cation that became effC(:tive July I, 2013.
       (hItD:llwww.brandeis.cdulfinancialafTairsfprocyrement!so lesourceiindc:t.html).



    12) Ensure Brandeis implements policies and procedures that ensure an inventory of accountable propeny is
        conducted bi-annually

       As evidenced in the University's annual OMS Circular A-l33 audits, thc University is complinnt with
       OMB Circular A-II 0 requiring bi-annual inventory of moveable equipment greater than our Cognizant
       Agency (Depanment of Health & Human Services) approved capitnl ization threshold of$ 5,000, As
       stated in our response to recommendation # 10, the University flows down all applicable provisions to
       its subrccipients, In the ease of IJIS Institute, the subrecipient in question, we requested and received a
       copy of their A 133 audit as well a signed attestation letter indicating that their A 133 audit was
       completed with no material weaknesses or findings related to their
       sub award with the University for FY I 0 through FY 12. The University mai ntains that it reasonably
       relied on this documentation, and does not concur wi th this recommendation.
       The subrecipient is responsible for ensuring that equipment purchased with pass-through funds is being
       properly utilized and inventoried,


Conclusion and Res ponse to Recommendations
For the rensons set fonh above, the University respect fully does not concur with the Draft Audit Report's
recommendation that it remedy S 595,001 in oonsulting expenses as being unsupponcd and S 60,068 in
oonsulting expenses for exceeding the hourly approved rate, The University ooncurs with the audi tor's findings
wit h respect to S 23 ,923 in out of period expenses, but requests relief ofS 22, 167 for oostS incurred in different
periods for the same project based on program performance and BJA 's subsequCl1t change in the way it funds
oontinuing activities for the samc program, The Univenity ooncurs with recommendation # 9 10 remedy S
7,301 foroonferencc and staff retreat expenses.

The Univcrsity also submits that the positive oomments incorporated in the Draft Audit Repon with respect to
Federal Financial Rcporting, Grant Fund Drawdowns, Budget Management and Control, Calculation of Indirect
Cost, Conference Management and Personnel and Fringe Benefits is funher evidence that the Univers ity has
sound policies and procedures in place and is oomplying wit h them, The University will address those areas
identified where clarification and improved communication of policies is required.

We appreciate the guidance we received from the audit team during the fieldwork and subsequently. We look
forward to ouropponunity to resolve these final questioned costs wilh BJA and the Audi t Resolution group of
the DOJ and appreciate the time and effon that DOJ oommitted to ensuring a complete and accurate report,




(?~#~
VP Financial A ffaiTs and University Treasurer
                                                               ~lS~ Assistan t Provo st for Research Adminis tration




                                                      - 29 ­
                                                                                                         APPENDIX IV


          OFFICE OF JUSTICE PROGRAMS

      RESPONSE TO THE DRAFT AUDIT REPORT

                                                            U.S. Department of Justice

                                                            Office ofJustice Programs

                                                           Office ofAudit, Assessment, and Management



                                                           W<UII...,... D.C 1/)jJI
     fEB 28 2014



MEMORANDUM TO:                   Thomas O. Puener
                                 Regional Audi t Mlillager
                                 Ph iladelphia Regional Audit Office
                                 Office oflhe Inspector General


FROM :                        ~1;~
                                 Acting Director

SUBJECT:                         Response to the Draft Audit Report, Audit ofthe Office ofJuslice
                                 Programs, Bureau ofJustice AuislOnce, Cooperative Agreements
                                 Awarded /0 Brandeis Unh'ersity, Waf/Mm, Massachusetts

This mt!morandum is in refen:nce to your correspondence, dated January 29, 2014. transmitting
the above-referenced draft audit report for Brandeis University (Brandeis). We consider the
subjcc t repon resolved and request written acccpt.an<:e of this action from your office.

The draft report contains 12 recommendations and 5608,646 1 in nct questioned costs. The
following is the Office of Justice Programs' (OlP) analysis of tile draft audit report
recommendations. For ease ofreview.lhe recommendations ate restat~>d in bold and are
foll owed by our responsc.

I.      We recomm ~ nd that OJP ensure th ai Brandei§ impleml,' ntl l)oliciCllllnd prueedu res
        that ensure accountability over Fweral fund s.

        OlP agrees with the recommendation. We will coordilllltc with Brandeis to obtain a
        copy of policies and procedures developed and implemented to ensure Fedcral funds are
        properly accounted for and adequately safeguarded.

2.      We re co mm eod th at OJP r emwy the 5595,001 ill unsupport ed coosuH ant
        cxpenditu rn.

        OlP agrees with the re.:ommendation. We will coordinllle with Brandeis to remedy the
        5595,001 in WlSUpported excess consultant expenditures.



'Some costs wen: quesliooed for more !han one   mosotI.   Net q~iooed    toSl$   "elude Ihe dupticm amounts.




                                                     - 30 ­
3.   We recommend th a t OJI' ensure th at RNind eis implements policies a nd procedure
     th at ens un consultan t invoices are supported by tim e and a«:tivi ty reports.

     OJP agrees with the rel:ommendation. We will coordinate with Brandeis to obtain a
     copy of policies and procedures developed and implemented to ensure that consultant
     invoices are supported by time and activity repons.

4,   We recommend that OJP rem edy the S60,068 in un a llo wa ble consultant pa ym ents
     (o r exceeding the O JP Financial Guide S56.25 per hour limit on consultant pay.

     OJP agrees with the recommendation. We will coordinate with Brandeis to remedy the
     $60,068 in questioned consultant payments, which cxcet:<ied the Ql P Financinl Guide's
     limits on consultant pay.

5.   We r ecomm end that OJP ens ure that BNlndeis d evelo ps Ilolicies lind procedures to
     prevent co nsultant compensation from exceeding 556.25 per h our without IJrior
     a pprova l of the Hurellu o( .Iustice Auistance ( IU A).

     OJP agrees with the recommendation. We will coord inate wit h Brandeis to obtain a copy
     of policies and procedures developed and implemented to ensure tha t consultant
     compensation does not exceed the limits on consultant pay, as stated in the OJP Financial
     Guide. without prior approval ofOJP,

6.   We re«:ommend that OJP ensure th at Hraodei5 5trength cns its polieiH a nd
     proced urcs related to t bc timdy 5ubmin io n ofiu progrtu reports.

     OJP agrees with the recommendation. We will coordinate with Brandeis to obtain a copy
     of policies and procedures developed and implemented to cnsure that future progress
     reports are timel y submittcd.

7.   We recommend that OJP remed y the S23.923 1sicl In un allowable costs «:hargcd to
     cooperative ag reement numbers 2008-PM-IlX- KO I 7 (522,167 (or this gra nt
     spedficalty) and 2011-PM-BX-KOOI (S I ,757 (or thi5 grant s pecifically).

     OJ I' agrees with the J"eC{)mmendatioll. We will coordinate with Brandeis to remedy
     the $23,923 [sicJ in questioned costs charged \0 cooperati ve agreement numbers
     2008-PM-8X-KOI7 ($22,167) aod 2011-PM-B X-KOOI (51,757).

8.   We recommend that OJP ensure that Urandeis implements contractor monito ring
     policies and profO:eduJ"C!l 10 better dOfO:um ent co nt.ra£lor pcr(ormanfO:C as well as
     contr acto r compliance with the fO:Ontrllcl.

     OJP agrees with the recommendation. We will r;;oord inale with Brandeis to obtain a
     copy of policies and procedures developed and implemented to ensure that adequate
     monitoring of contractor performance, as well as contractor compliance with the contract,
     is enforced,


                                             2




                                          - 31 ­
9.     We recommend that OJ!' remedy tile S7,301 in unallowable expenditures chargcd to
       award number 2009-PM-BX-K044 for conference and staff retreat expenses.

       OJI' agree~ with the recommendation. We will coordinate with Brandeis to remedy
       the $7,30 1 in un<1tnhorized expenditures charged to cooperative agreement number
       2009-PM-BX-K044, related to conference and staff retreat expenses.

10.    We recommcnd that OJP ensure Brandeis implements a subrecipicnt monitoring
       program to ensure that its suhrecipientls comply with contract requirements and the
       U.S. Department of Justke standards.

       OJP agrees with the recommendation. We will coordinate with Brandeis to obtain a
       copy of policies and procedures developed and implemented to ensure that Federal funds
       awarded to suhreeipient:>, arc properly accounted for, controlled, and monitored; and the
       supporting documentation is maintained for future auditing purposes.

ll.    Wc rccommcnd that OJP cnsure that Brandeis implements policies and procedures
       thai ensure the routine monitoring of compliance with award special conditions.

       OJP agrees with the recommendation. We will coordinate with Brandeis to obtain a
       copy of policies and procedures developed and implemented to ensure the routine
       monitoring of compliance with award special condilions_

12.    We recommend that OJP ensure that Brandeis implements policies and procedures
       that ensure an inventory or accounta ble property is conducted bi.aonually.

       OJP agrees with the recommendation. We will coordinate with Brandeis to obtain a
       copy of policies and procedures developed and implemented to ensure that a physical
       inventory of fixed assets pureha<;ed with Federal funds is perfonned at least every two
       years; and the results of the physical inventory are reconciled to the fixed asset records.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O'Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trdutman
       Deputy Director for Programs
       Bureau of Justice Assistance



                                                 3




                                              - 32 ­
cc;   Eileen Garry
      Deputy Director
      Bureau of Justice Assistance

      James Simonson
      Budget Director
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

      Jeffrey Felten-Green
      Grant Program Specialist
      8w-cau of lusticc Assistance

      Leigh A Benda
      Chief Financial Officer

      Christal MCNeil-Wright
      rusociale Chief Financial Officer
      Grants Financial Management Divisiun
      Office oflhe Chief Financial Officer

      Jerry Conty
      Assistant Chief Financial Officer
      Grants Financial Management Division
      Office oflhe Chief Financial Officer

      Lucy Mungle
      Manager, Evaluation and Oversight Division
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Richard P. Theis
      Assistant Director, Audit Liaison Grou p
      Internal Review and Evaluation Officc
      Justice Management Division

      OJP Executive Secretariat
      Control Number IT20 14021 0123803




                                                 4




                                           - 33 ­
                                                                     APPENDIX V



        OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

      SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Brandeis University
(Brandeis) and the Office of Justice Programs (OJP). Brandeis’ response is
included as Appendix III, and OJP’s response is included as Appendix IV of
this final report. In response to our audit report, OJP agreed with our
recommendations and discussed the actions it will take to address each of
our findings. The following provides our analysis of the responses and
summary of actions necessary to close the report.

Summary of Actions Necessary to Close Report

1.	    Ensure Brandeis implements policies and procedures that ensure
       accountability over federal funds.

       Resolved. The OJP response agreed with our recommendation. This
       recommendation is resolved based on OJP’s concurrence and agreement to
       work with Brandeis to ensure it enhances its policies and procedures to
       enhance accountability over federal funds.

       In its response, Brandeis did not agree with our recommendation and cited
       Brandeis’s A-133 single audits from the past 15 years, which did not report
       any material weakness in internal controls, as well as the Brandeis’s own
       efforts to promote sound internal controls as support for why enhancements to
       Brandeis’s financial policies and procedures are unnecessary. Further,
       Brandeis’s response did not specifically address the internal control weakness
       raised in the draft report.

       While we reviewed Brandeis’s A-133 audits as part of our audit work, we did
       not rely on the results of that review and we performed our own testing of
       Brandeis’s adherence with DOJ requirements. As a result of that testing, we
       found deficiencies related to Brandeis’s controls over its cooperative
       agreement funds, which are discussed in detail throughout the report. For
       example, Brandeis neither complied with grant requirements related to support
       for consultant payments, nor its own sole source procurement policy. In
       addition, as shown below in the discussion of recommendations three and
       eight, Brandeis concurred with our recommendations to enhance its policies
       and procedures regarding procurement and consultant invoices, both of which
       will help ensure the accountability of federal funds.

       This recommendation can be closed when we receive documentation
       demonstrating Brandeis has developed and implemented policies and
       procedures that ensure it has adequate accountability over federal funds.




                                         - 34 ­
2.   Remedy $595,001 in unsupported consultant expenditures.

     Resolved. The OJP response agreed with our recommendation. This
     recommendation is resolved based on OJP’s concurrence and agreement to
     work with Brandeis to remedy $595,001 in unsupported consultant
     expenditures.

     In its response, Brandeis did not concur with the underlying finding that is the
     basis of our recommendation that OJP remedy $595,001 in unsupported
     consultant expenditures. In its response, Brandeis stated that the consultant
     invoices at issue were adequately supported. It further stated that the
     consultants submitted invoices which Brandeis believes were properly
     submitted in accordance with rates and level of effort disclosed in the
     approved budgets of the cooperative agreements. Brandeis also noted that
     during our audit we asked for additional supporting documentation for the
     consultant invoices and it provided technical assistant service logs which
     included the dates and services provided by the consultants.

     Further, the technical assistant service logs Brandeis provided during our audit
     were not sufficient for this purpose because they did not include the number of
     hours each consultant work worked on each service provided, or the total
     number of hours worked each month. Because Brandeis did not provide
     supporting documentation that demonstrated the number of hours each
     consultant worked for each invoice Brandeis paid, we consider the costs
     unsupported.

     Additionally, Brandeis stated that there is no basis to question the consultants’
     work because the draft report concluded that Brandeis met its performance
     objectives for the cooperative agreements. It also cited our report, which
     concluded that the University spent cooperative agreement funds in
     accordance with budgets approved by BJA. However, we note that the
     performance on the grant objectives does not mitigate the financial
     management risk posed by noncompliance with grant conditions. Also, the
     approved budgets with which the report concluded Brandeis was in compliance
     identified broad spending categories of expenditures, such as consultant costs.
     The fact that we concluded that Brandeis expended funds for the categories of
     items identified in the budget does not alleviate Brandeis’s responsibilities to
     maintain documentation for those expenditures or to adhere to the limits of
     those expenditures imposed by the award special conditions.

     Further, Brandeis confirmed that consultant invoices did not include the dates
     and hours worked, but that it now requires that information on consultant
     invoices, as discussed in our analysis of recommendation 3.

     This recommendation can be closed when we receive documentation that OJP
     has remedied $595,001 in unsupported consultant expenses.




                                        - 35 ­
3.	   Ensure Brandeis implements policies and procedures that ensure
      consultant invoices are supported by time and activity reports.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      work with Brandeis to develop policies and procedures requiring its consultants
      to submit details of hours worked.

      In its response, Brandeis concurred with this recommendation. Brandeis’s
      response stated that it has implemented the necessary policies and procedures
      requiring consultants to submit details of hours worked, including the hours
      worked by date, to support invoices submitted for payment.

      This recommendation can be closed when we receive documentation
      confirming that Brandeis has implemented the necessary policies and
      procedures that require consultants submit details of hours worked, by date, in
      support of invoices submitted for payment.

4.	   Remedy $60,068 in unallowable consultant payments for exceeding
      the OJP Financial Guide $56.25 per hour limit on consultant pay.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      work with Brandeis to remedy $60,068 in unallowable expenditures.

      In its response, Brandeis did not concur with our recommendation and stated
      that the consultant worked an 8 hour work day. In addition, Brandeis stated
      that consultants are independent contractors and therefore establish the
      length of their own work day and that consultants are not bound to Brandeis’s
      7 hour work day. To support this position, Brandeis cited OJP’s Grants 101
      website which advised grantees to base their budget submissions to OJP for
      consultants on an 8 hour work day. Lastly, Brandeis stated, “It is clearly
      anticipated that, as part of the very nature of a consultancy, the consultant
      should establish his/her own work day.”

      We disagree with Brandeis’s response. While the OJP’s Grants 101 website
      advised grantees to submit a grant application that disclosed the consultant’s
      hourly or daily fee for an 8 hour day, this guidance only applies to the
      development and submission of grant and cooperative agreement budgets.
      The OJP Financial Guide clearly states that recipients need to request prior OJP
      approval for consultants that are compensated in excess of $450 per 8 hour
      day or $56.25 per hour. As we noted in our discussion of Recommendation 3,
      Brandeis did not require its consultants to submit time and effort reports, as
      required by the OJP Financial Guide, and we found no evidence or records to
      support that Brandeis’s consultants deviated from Brandeis’s 7 hour work day.
      As a result, we concluded from the consultant cost information Brandeis
      provided us that the consultants were paid in excess of $56.25 per hour.
      Brandeis has not provided sufficient documentation to refute that



                                        - 36 ­
      determination, such as time and effort or timesheet reports for consultant
      costs.

      In addition, our recommendation questioned $60,068 for unallowable
      expenditures for four consultants, but Brandeis’s response only states that one
      consultant actually worked an 8 hour work day, and Brandeis did not provide
      any financial documentation to support this statement. Without supporting
      financial documentation, we are unable to verify Brandeis’s consultants worked
      an 8 hour work day.

      This recommendation can be closed when we receive documentation
      confirming OJP has remedied $60,068 in unallowable consultant expenditures.

5.	   Ensure Brandeis develops policies and procedures to prevent
      consultant compensation from exceeding $56.25 per hour without BJA
      prior approval.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      coordinate with Brandeis to ensure that it develops policies and procedures to
      ensure consultant compensation does not exceed the $56.25 hourly limit.

      In its response, Brandeis did not concur with our recommendation. In its
      response, Brandeis stated that it was compliant with the consultant
      compensation limit. We disagree with Brandeis because our audit identified
      $60,068 in unallowable consultant payments because the only information
      Brandeis provided us related to consultant costs indicates that it exceeded the
      $56.25 hourly consultant limit (see analysis of recommendation 4).

      This recommendation can be closed when we receive documentation that
      Brandeis has developed policies and procedures that prevent consultant
      compensation from exceeding $56.25 per hour.

6.	   Ensure Brandeis strengthens its policies and procedures related to the
      timely submission of its progress reports.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      coordinate with Brandeis to ensure that policies and procedures related to the
      timely submission of progress reports are strengthened.

      In its response, Brandeis did not concur with our recommendation that it
      strengthen its policies and procedures related to the timely submission of its
      progress reports. Brandeis agreed that 4 of the 12 progress reports were not
      submitted on time and provided explanations as to why the four progress
      reports were not submitted on time. Specifically, Brandeis cited technical
      difficulties with BJA’s reporting system and a lack of project activity as the
      reasons for the untimely submissions.



                                        - 37 ­
      We disagree with Brandeis that strengthening its policies and procedures is not
      a reasonable remedy to address the late submission of progress reports. In
      addition to our concern that 25 percent of the progress reports were submitted
      late, we note that Brandeis had to be notified by BJA that it was required to
      submit progress reports regardless of the amount of project activity in the
      reporting period. We believe that strengthening policies and procedures is a
      reasonable remedy, especially considering Brandeis at the time of our audit
      had multiple staff members responsible for progress reporting duties.

      This recommendation can be closed when we receive documentation
      demonstrating that Brandeis strengthened its policies and procedures related
      to the timely submission of its progress reports.

7.	   Remedy $23,923 in unallowable costs charged to the
      2008-PM-BX-K017 ($22,167 for this cooperative agreement
      specifically) and 2011-PM-BX-K001 ($1,757 for this cooperative
      agreement specifically) cooperative agreements.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      work with Brandeis to remedy $23,923 in unallowable costs.

      Brandeis concurred with our recommendation and stated similar future
      unallowable costs are unlikely to occur because its BJA cooperative
      agreements no longer have overlapping time periods. Further, Brandeis
      requested relief of $22,167 based on its performance on the 2008-PM-BX­
      K017 cooperative agreement. The OIG does not grant relief of questioned
      costs. OJP will determine how the costs will be remedied.

      This recommendation can be closed when we receive documentation that OJP
      has remedied $23,923 in unallowable costs.

8.	   Ensure Brandeis implements contractor monitoring policies and
      procedures to better document contractor performance as well as
      contractor compliance with the contract.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      coordinate with Brandeis to ensure Brandeis develops contractor monitoring
      policies and procedures.

      In its response, Brandeis concurred with our recommendation. In its response,
      Brandeis stated that it had made several improvements to prevent a
      contractor from being paid more than the amount in the approved budget,
      including overhauling its procurement system, providing extensive training for
      personnel, and issuing best practice policies and procedures.




                                        - 38 ­
      This recommendation can be closed when we receive documentation that
      Brandeis has developed policies and procedures to better document contractor
      performance as well as contractor compliance with the contract.

9.	   Remedy $7,301 in unallowable expenditures charged to the
      2009-PM-BX-K044 award for conference and staff retreats.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      work with Brandeis to remedy $7,301 in unallowable expenditures.

      In its response, Brandeis stated that it concurred with our recommendation.

      This recommendation can be closed when we receive documentation that OJP
      has remedied the $7,301 in unallowable expenditures charged to the 2009-PM­
      BX-K044 award.

10.	 Ensure Brandeis implements a subrecipient monitoring program to
     ensure that its subrecipients comply with contract requirements and
     DOJ standards.

      Resolved. The OJP response agreed with our recommendation. This
      recommendation is resolved based on OJP’s concurrence and agreement to
      coordinate with Brandeis to ensure that a subrecipient monitoring program is
      implemented that ensures subrecipients comply with contract requirements
      and DOJ standards.

      In its response, Brandeis did not concur with the basis of our recommendation,
      that Brandeis lacks an effective sub recipient monitoring program. In its
      response, Brandeis stated that it complies with OMB Circulars A-21, A-110,
      and A-133 regarding subrecipient monitoring, and therefore, Brandeis believes
      it has an effective subrecipient monitoring program. In addition, Brandeis
      cited the improvements to its procurement policy in response to
      recommendation 8 as steps it has taken to ensure vendor compliance with
      contract requirements. Brandeis stated that the training regarding qualified
      vendors, sole source procurement requirements, and change orders were the
      changes that were most important to this recommendation.

      We disagree with Brandeis’s response. The OJP Financial Guide requires that
      recipients monitor any subrecipient and ensure that all programmatic and
      fiscal responsibilities are fulfilled. The subrecipient agreement provisions cited
      by Brandeis are the same provisions that Brandeis used in its monitoring of
      IJIS, and these provisions did not ensure that IJIS fulfilled all of its fiscal
      responsibilities. As discussed in our report, IJIS made unapproved changes to
      its scope of work, did not inventory accountable property, and charged $7,301
      of unallowable expenditures to the 2009-PM-BX-K044 award. In our
      judgment, the refinements made to Brandeis’s procurement policy in response
      to Recommendation 8 are insufficient because they are not equivalent to the
      implementation of a subrecipient monitoring program.


                                         - 39 ­
    This recommendation can be closed when we receive documentation that
    confirms Brandeis has implemented a subrecipient monitoring program.

11.	 Ensure Brandeis implements policies and procedures that ensure the
     routine monitoring of compliance with award special conditions.

    Resolved. The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement to
    coordinate with Brandeis to ensure Brandeis develops policies and procedures
    that ensure the routine monitoring of compliance with award special
    conditions.

    In its response, Brandeis did not concur with the premise that it lacks policies
    and procedures to ensure compliance with award special conditions. Brandeis
    stated that the draft report concluded that Brandeis met most of the 79 special
    conditions included in the four cooperative agreements we audited. Brandeis
    also stated that it has taken the necessary steps and implemented appropriate
    policies and procedures to ensure that the two award special conditions
    identified during the audit as not being are met in the future.

    We disagree with Brandeis’s response. We agree that Brandeis complied with
    most of the special conditions contained in its four cooperative agreement
    awards. However, during the course of our audit, we found that Brandeis did
    not have policies and procedures in place to ensure that each award’s special
    conditions were taken into account when administering the awards. For
    example, as noted in Brandeis’s response, the two special conditions cited in
    our report that were not met affected three other audit findings and
    recommendations. We believe that Brandeis’s management of OJP funds
    would be greatly enhanced if Brandeis had policies in place to ensure that each
    award’s special conditions were reviewed and procedures were adequately
    implemented to ensure each special condition was met.

    This recommendation can be closed when we receive documentation that
    confirms Brandeis has implemented policies and procedures that ensure the
    routine monitoring of compliance with award special conditions.

12.	 Ensure Brandeis implements policies and procedures that ensure an
     inventory of accountable property is conducted bi-annually.

    Resolved. The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement to
    coordinate with Brandeis to ensure Brandeis implements policies and
    procedures that ensure an inventory of accountable property is conduced bi­
    annually.

    Brandeis did not concur with our recommendation. In its response, Brandeis
    stated, as evidenced by its annual OMB Circular A-133 audits, it is compliant
    with OMB Circular A-110’s requirement for a bi-annual inventory of moveable


                                      - 40 ­
equipment. Brandeis stated that those requirements flowed down to its
subrecipients and that, in the case of the IJIS Institute, it had requested and
received a copy of the IJIS Institute’s OMB Circular A-133 audit, as well as a
signed attestation letter indicating that the institute’s A-133 audit found no
material weaknesses or findings related to Brandeis for FYs 2010 through
2012. Brandeis asserted that the subrecipient is responsible for ensuring that
equipment purchased with pass-through funds is being properly utilized and
inventoried.

We disagree with Brandeis’s response. The OJP Financial Guide requires that
award recipients monitor any subrecipient and ensure that all programmatic
and fiscal responsibilities are fulfilled. As discussed in the report, Brandeis’s
subrecipient did not inventory accountable property purchased with
cooperative agreement funds and Brandeis did not ensure that its subrecipient
fulfilled all of its fiscal responsibilities as required by the OJP Financial Guide.

This recommendation can be closed when we receive documentation that
confirms Brandeis has implemented policies and procedures that ensure an
inventory of accountable property is conducted bi-annually.




                                    - 41 ­
